NO.:

IN THE
SUPREME COURT OF THE UNITED STATES

BRUCE SIMMONS,

Petitioner,
v.

UNITED STATES OF AMERICA,

Respondent.

On Petition for Writ of Certiorari to the United States Court
of Appeals for the Eleventh Circuit

APPENDIX OF THE PETITIONER

BRUCE SIMMONS
283 S.W. 8th Street
Dania Beach, Florida, 33004, Apt. 4
Pro se Counsel

f

•X

appendix

-\

INDEX OF APPENDIX
Decision of the Court of Appeals for the Eleventh Circuit Under Review

A-l

District Court Judgment in Coram Nobis

A-2

Eleventh Circuit Denial of Rehearing En Banc

A-3

Indictment

A-4

2255 Final Order Dismissal

A-5

Report of Magistrate Judge

A-6

Govt.’s Brief Conceding Aiding Abetting Conviction

A-l

Eleventh Circuit Court of Appeals Mandate

A-8

Government’s Response to First § 2255 Motion arguing Procedural Bar

A-9

Eleventh Circuit Judicial Complaint Conceding Erroneous Statement

42

A-10

APPENDIX A-1

I

Case: 19-14385

Date Filed: 05/29/2020

Page: 1 of 4

[DO NOT PUBLISH]

IN the united states COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 19-14385
Non-Argument Calendar
D C. Docket No. O.T9-cv-61443-UU

BRUCE SIMMONS,

Plaintiff-Appellant,
versus
UNITED STATES OF AMERICA,
Defendant-Appellee.
Appeal from the United States District Court
lor the Southern District of Florida
(May 29, 2020)
Before WILLIAM PRYOR,
PER CURIAM:

GRANT and LUCK, Circuit Judges.

Case: 19-14385

Date Filed: 05/29/2020

Page: 2 of 4

Brace Simmons appeals the denial of his pro so petition for a writ of error
coram nobis under the All Writs Act. 28 U.S.C. § 1651(a). We affirm.
In 1999, the district court convicted Simmons of two counts of distributing
cocaine. 21 U.S.C. § 841(a)(1); 18 U.S.C. § 2. The jury heard testimony from
Agent Adrienne Sullivan of the Federal Bureau of Investigation that he gave a
confidential informant cash on two occasions to purchase cocaine from Simmons,
from a second agent about Simmons’s interview, and from Simmons, who denied
any wrongdoing and blamed the informant for deceiving Sullivan. The district
court sentenced Simmons to concurrent sentences of 240 months of imprisonment.
Simmons filed several unsuccessful challenges to his convictions and
sentence. In his direct appeal, he argued that the evidence was insufficient to
support his convictions, and we affmned. United States v. Simmons, 237 F.3d 634
(11th Cir. 2000). Simmons later filed several petitions for the writ of error coram
nobis in which he argued that he was legally innocent and requested that the
district court vacate his convictions and sentence. He also moved to vacate his
sentence on the ground that his counsel was ineffective for failing to challenge the
sufficiency of the evidence, but the district court denied the motion as moot and
later we denied Simmons a certificate of appealability. Undeterred, Simmons filed
additional postconviction motions and petitions, which the district court dismissed,
for the most part, as successive. Id. §§ 2255, 2241; see Simmons v. Warden, 589 F.

Case: 19-14385

Date Filed: 05/29/2020

Page: 3 of 4

App’x 919 (11th Cir. 2014) (recounting Simmons’s litigation history

and affirming

a limitation on challenging his convictions).
In 2019, Simmons filed the petition for a writ of coram nobis that is the
subject of this appeal. He argued that he was

wrongfully convicted because the

government failed to present scientific evidence

connecting him to the crimes or to

call the confidential informant as a witness because she was imprisoned on
unrelated drug charges. He also argued that Sullivan

s testimony was insufficient

to support his convictions. The district court denied Simmon

s’s petition because he
had failed to identify any evidence to support his claim of innocence and
was
attempting to re-litigate his conviction[s].”
We review the denial of a petition for a writ of coram nobis for abuse of
discretion. United States v. Peter, 310 F.3d 709, 711 (11th Cir. 2002). A writ of
error coram nobis “is an extraordinary remedy of last resort available only in
compelling circumstances where necessary to achieve justice.” United States v.
Mills, 221 F.3d 1201,1203 (11th Cir. 2000). The district

court can issue the writ

only when there is and was no other available avenue of relief

’ and “the error

involves a matter of fact of the most fundamental character which has not been put
in issue or passed upon and which renders the proceeding itself irregular and
invalid.” Alikhani v. United States, 200 F.3d 732, 734 (11th Cir. 2000).

3

Case: 19-14385

Date Filed: 05/29/2020

Page: 4 of 4

The district court did not abuse its discretion by denying Simmons’s
petition. Simmons alleged no facts to support a claim of actual innocence. See
Bousley v. United States, 523 U.S. 614, 623 (1998) (‘“[Actual innocence’ means
factual innocence, not mere legal insufficiency.”). He also failed to identify any
errors during his trial that a writ of coram nobis could remedy. See Carlisle v.
United States, 517 U.S. 416, 429 (1996) (“[A] writ of coram nobis

. was

traditionally available only to bring before the court factual errors ‘material to the
validity and regularity of the legal proceeding itself ....”). And the writ is
unavailable to relitigate a conviction. See United States v. Addonizio, 442 U.S. 178,
186—88 (1979).
We AFFIRM the denial of Simmons’s petition.

4

lb tntered

PLSD Docket: 10/31/2019

Page 1 of 7

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA

BRUCE SIMMONS,

Case No.: 0:19-cv-61443-UU/REID
Cnm. No.: 0:98-cr-06232-ZLOCH

Petitioner,

UNITED STATES OF AMERICA,
Respondent.

THIS CAUSE is before the Co

urt upon Petitioner’s pro se Common Law Petition for Writ

of Eiror Coram Nobis (D.E. 1) (the “Petition”).
THE COURT has considered the Petition

and is otherwise fully advised in the premises.

This matter was referred to Magistrate Judge Lisette M
•
issued a Report (the “Report”) (D.E. 13) r

who, on September 25,2019,

ecommending that the Petition be dismissed bee ause:(1)

Petitioner’s claims, that he is actually innocent because the evid

ence at trial did not support a guilty

verdict, have “previously been ruled

upon ; and (2) he is barred from coram nobis relief because
he has not provided sound reasons for failing to seek relief earlier. The G
ovemment has not been
ordered to file a response to the Petition. D.E. 13 at 2.
Petitioner timely filed objections to the Report. D.E. 14. Petitioner argues that while the
Court has previously ruled on his numerous pos.-convichon motions, “all of the dismissals relating
to [his] efforts to have his claims heard by the Courts
determination." Id. at 2 (emphasis in original).

1

were dismissed without a merits

'-ase: u:iy-cv-t>1443-UU

Document #: 16 Entered on FLSD Docket: 10/31/2019

Page 2 ot 7

Upon de novo review, the Court respectfully rejects Magistrate Judge Reid’s
recommendations and denies the Petition on the merits.

BACKGROUND
Petitioner is a former federal prisoner who served 18

years in prison and three years of

supervised release after a jury found him guilty of two counts of distribution

of cocaine. D.E. 1 at

2; 98-cr-06232 D.E. 73. He claims he was wrongfully convicted and that there was insufficient
evidence to convict him. D.E. 1 at 2,13-17.
I.

Direct Appeal
Petitioner’s convictions were affirmed on October 27,2000. United States

v. Simmons, No.

99-i2064 (11th Cir. 2000) (per curiam); D.E. 100. The
one-page, unpublished opinion reads, in
full:

This court reviews a question of whether the district court erred in limiting
cross examination for clear abuse of discretion.
After reviewing
_.
. . the record we see no merit to any of the arguments ^
Simmons makes in his appeal. Simmons argues, without citing to authority, that he
was entitled to impeach an individual who was not called as a witness at trial.
However, Federal Rule of Evidence 609 provides that only those individuals called
as witnesses may be impeached by evidence of a criminal conviction. Therefore
we reject this argument and all other arguments Simmons makes in his
appeal.
United States v. Simmons, No. 99-12064 (11th Cir. 2000) (internal citations
omitted). Oral
arguments were not conducted. Id. Rehearing and rehearing en banc were denied, as was certiorari
review. See D.E. 13 at 3.

1 Petitioner raised additional arguments in a pro se supplemental filing. The Eleventh Circuit denied Petitioner’s
mot.0" for leave to file supplement* briefing. See D.E. 1 a. 50 (Judicial Compl. No. 11-10-90021). Petor
asserts that he first raised his claim of innocence in the pro se supplemental filing. D.E. 1 at 11.

2

i-Hicicu uri t-LisU

II.

Socket: 10/31/2019

Page 3 of 7

_CoramNobis” Petitions

The issuance of a writ of error coram nobis is a
remedy available to vacate a conviction
when the petitioner has served his sentence and is
no longer in custody. See United States v. Peter,
310 F.3d 709, 712 (11th Cir. 2002). Petitioner wa
s released from prison on or about June 10
,2016.
Petitioner filed his first coram nobis petition after he
was convicted but before he was sentenced,
alleging that “fundamental
error occurred . . . where the jury found that [he] aided and
abetted
himself.” 98-cr-06232 D.E. 59 at 2. The Ele
venth Circuit affirmed the district
court’s denial of the
petition. Id. D.E. 97.
In 2016 while he was still in custody, Petitioner filed t
March 18,2016, he filed a petition alleging that he

wo more coram nobis petitions. On

was “ actually] innocen[t] of the crimes... but

more importantly, that [he] was convicted for anon-exi
-existent offense, aiding and abetting himself.”
98-cr-06232 D.E. 120 at 2. The Court dismissed the petition because h
e was still in custody. Id.
D.E. 121. On June 13, 2016, Petitioner filed his third
coram nobis petition, alleging his “actual
innocence” and that his supervised release term
was unconstitutional. - Id. D.E. 122. The Court
again dismissed the petition because Petiti oner was
still m custody serving his supervised release
term. Id. D.E. 123; 0:16-cv-61256 D.E. 8, 11.

The instant Petition appears to be Petitioner’s first

properly filed coram nobis petition.
HI-

Habeas Petitions
Petitioner has filed at least seven motions seeking habeas relief under 28 U.S.C
• §§ 2255,

2241. His first § 2255 motion, in which he alleged ineffective assistance
challenge the sufficiency of the evidence, prosecutorial

of counsel for failing to

misconduct, and other issues with his

indictment and jury instructions, was denied as moot because the ‘.‘Eleventh Circuit rejected these
similar claims in Simmons’ direct appeal.” 0:01-cv-06504-CMA D.E

3

. 1, 28 at 1. The Eleventh

Case: 0:19-cv-61443-UU

Document #: 16 Entered on FLSD Docket: 10/31/2019

Page 4 ot 7

Circuit declined to issue a certificate of availability. Petitioner filed dozens of motions for
reconsideration and relief from judgment, all of which were denied. Petitioner now argues that
because he was deprived of “any opportunity to have his first § 2255 motion addressed on the
merits .. . every subsequent motion [that has been denied] as procedurally barred .. . was in error.”
D.E. 1 at 9.
Each of his other six habeas motions were also denied on procedural grounds. 04-cv60696-COHN D.E. 4, 6; 05-cv-60353-ZLOCH D.E. 3, 5; 08-cv-60303-CMA D.E. 15; 12-cv60031-ZLOCH D.E. 6; 13-cv-22401-ZLOCH D.E. 8; 14-cv-20995-CMA D.E. 14. In two of those
motions, Petitioner alleged he was innocent because the evidence at trial did not establish his guilt.
04-cv-60696-COHN D.E. 1 at 6-13; 13-cv-22401-ZLOCHD.E. 1 at 11.
In sum, the instant claim has never been addressed on the merits and Petitioner has sought
relief for this specific claim at least four times.
DISCUSSION
Petitioner claims he suffered a fundamental miscarriage of justice because the entirety of
the Government’s case-in-chief rested on the testimony of one person, Special Agent Adrienne
Sullivan, and the Government failed to call the confidential informant (“Cl”), who was
incarcerated on unrelated drug charges. D.E. 1 at 13-14. He further alleges, inter alia, that Agent
Sullivan testified that she never saw Petitioner deliver the cocaine to the Cl; she never discussed
the drug purchase price with Petitioner; and she did not hear the conversation Petitioner had with
the CL Id. at 14-15. Petitioner testified at trial. He continues to maintain his “factual and legal
innocence.” D.E. 1 at 2.
“The writ of error coram nobis is an extraordinary remedy of last resort available only in
compelling circumstances where necessary to achieve justice” or where the error is “of the most

4

-*-w

fundamental character.” United States
difficult to conceive of a situation in

L.IUCICU ull rLZ)U

uocKei: 10/31/2019

v. Mills, 221 F.3d 1201, 1203 (11th Cir. 2000). It is

a federal criminal case today where

be necessary or appropriate.” Lowery i

Page 5 of 7

coram nobis relief would

United States, 956 F.2d 227, 229 (11th Cir. 1992) (per

curiam) (internal quotation marks omitted).
Traditionally, coram nobis relief has been

available “only to bring before the court factual

errors ‘ material to the validity or regularity of the legal proceeding itself,
, such as the defendant’s
being under age or having died befo
re the verdict.” Carlisle United States, 517 U.S. 416, 429
(1996) (quoting United States v. Mayer, 23 U.S. 55, 67
-68 (1914)). Jurisdictional errors have long
been recognized as fundamental
errors “since jurisdictional error implicates a court’s power to
adjudicate the matter before it.” United States
Peter, 310 F.3d 709, 712 (llth Cir. 2002). In a
rare decision granting coram
nobis relief, the Eleventh Circuit
in Peter did so because the acts
forming the basis of the petitioner’s RICO
conviction did not establish his predicate crime of mail
fraud under a subsequently-decided U.S.

Supreme Court case. 310 F.3d at 711.

Coram nobis relief has been judicially

constrained. For example, “The writ of error coram

nobis. • • cannot be available for new evidence only potentially relevant to

a factual issue decided

long ago by a jury for, if it were, the limitations of Rule 33 [regarding a motion for

a new trial]

would be meaningless and the writ would no longer be extraordinary. More troublesome
a remedy would prolong litigation once concluded, thus thwarting society

still, such

’s compelling interest in

the finality of criminal convictions.
ns ” Moody v. United States, 874F.2d 1575, 1577 (llth Cir. 1989)
(emphasis added).
“To establish actual iinnocence, a petitioner must demonstrate that, in light of all the
evidence, it is more likely than not that no reasonable juror would have convicted him” Bousley v.
United States, 523 U.S. 614. 623 (1998). “A substantial claim that constitutional etror has
caused

5

Case: 0:19-cv-61443-UU

Document #: 16 Entered on FLSD Docket: 10/31/2019

Page 6 ot 7

the conviction of an innocent person is extremely rare .... To be credible, such a claim requires
petitioner to support his allegations of constitutional error with new reliable evidence—whether it
be exculpatory scientific evidence, trustworthy eyewitness accounts, or critical physical
evidence that was not presented at trial. Because such evidence is obviously unavailable in the
vast majority of cases, claims of actual innocence are rarely successful.” Schlup v. Delo, 513 U.S.
298, 324 (1995) (emphasis added). “Actual innocence” requires the petitioner to show “factual
innocence, not mere legal insufficiency.” Bousley, 523 U.S. at 623.
Petitioner has not established that he was charged with a non-offense, nor has he alleged
any new evidence, let alone new reliable evidence, of his actual innocence. His claim is one of
•legal innocence, not factual innocence.
Coram nobis is inapplicable if the petitioner merely wishes to re-litigate criminal
convictions. See United States v. Addonizio, 442 U.S. 178, 186-88 (1979). That is exactly what
Petitioner is attempting to do in this proceeding. Bums v. United States, No. 17-cv-62386COOKE, 2017 LEXIS 202665, *8-9 (S.D. Fla. Dec. 7, 2017). The Court denied his motion for
judgment of acquittal at the close of the Government’s case, his post-trial pro se motion for
judgment of acquittal, and his amended post-trial pro se motion for judgment of acquittal. 98-cr06232 D.E. 54,55, 61. In his post-trial pro se motion for judgment of acquittal, he argued that “the
evidence was legally insufficient to sustain a verdict of guilt” and made other claims similar to
those in the instant Petition. Id. D.E. 54 at 1. The Court denied the post-trial motions for judgment
of acquittal after “carefully review[ing] the merits of the two motions,” and dismissed them as
untimely or “in the alternative, assuming that this Court has jurisdiction ... the two motions. . .
are denied.” Id. D.E. 61. The Court also denied Petitioner’s motion for a new trial and pro se
supplements to the motion. Id. D.E. 49, 50, 51, 52. Thus, even taking Petitioner’s factual

6

II .

‘-nicieu un hLSU

J.w

uocKet: iu/31/2019

Page 7 of 7

allegations as true, he is not entitled to coram nobis relief because he i
e is attempting to re-litigate
his conviction.
CONCLUSION
Because the Court h

as never ruled on the merits of Petitioner’s

and because Petitioner has sought relief earlier,
denied because it fails on the merits, Acc

actual innocence claim

the Report is rejected. However, the Petition is

ordingly, it is hereby

ORDERED AND ADJUDGED that the Rep

ort, D.E.13 RESPECTFULLY REJECTED.

It is further
ORDERED AND ADJUDGED that the Petition, D.E
• 1, is DENIED. It is further
ORDERED AND ADJUDGED that this

case is closed.

DONE AND ORDERED in Chambers in Miami, Ho

rida this _3 lst_ day of October,

2019.

URSULA UNGARO
UNITED STATES DISTRICT JUDGE

Copies provided:
Bruce Simmons, pro se
Counsel of record via CM/ECF

7

APPENDIX A-3

IN THE UNITED STATES COl^T OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 19-14385-DD
BRUCE SIMMONS,
Plaintiff - Appellant,
versus
UNITED STATES OF AMERICA,
Appeal from t^ee6n^e§<S't^’l)tilsfrict Court
for the Southern District of Florida
ON PETITION(S) FOR REHEARING AND PETITION(S) FOR REHEARING EN BANC
BEFORE: WILLIAM PRYOR, Chief Judge, GRANT and LUCK, Circuit Judges.
PER CURIAM:
The Petition for Rehearing En Banc is DENIED, no judge in regular active service on the Cour
having requested that the Court be polled on rehearing en banc. (FRAP 35) The Petition for
Panel Rehearing is also denied. (FRAP 40)

ORD-46

i

APPENDIX A-4
A

'^0s-?«?

*

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA

UNITED STATES OF AMERICA,
Plaintiff,
v.
BRUCE SIMMONS,

)

CASE NO.

Cft-7lnru

21 USC 841(a)(1)
W|
18 USC 2 magistrate JUDGE
SELTZER

)
)
)
)
)

)

Defendant.

98-6232

INDICTMENT

r.

)
)

The Grand Jury charges that:
COUNT I

F*
r-1

<_D
C3

\
\

c">

:.

-.n

j—

\
\

</? \
cr t

On or about January 2> 1998., at Broward^ County, Southern
District of Florida and elsewhere, the defendant,
BRUCE SIMMONS,
did knowingly and intentionally distribute a? Schedule II controlled
substance, that is, a mixture and substance containing a detectable
amount of cocaine; in violation of Title 21, United States Code,
Section 841(a)(1) and Title 18, United States Code, Section 2^

COUNT II
On or about January 23, 1998, at Broward Counity, Southern
District of Florida and elsewhere, the defendant,
BRUCE SIMMONS,
did knowingly and intentionally distribute a Schedule El controlled
substance, that is, a mixture and substance containing a detectable
amount of cocaine; in violation of Title 21, United States Code,

exhibit

Section 841(a)(1) and Title 18, United States Code,
Section 2.
A TRUE BILL

FOREPERSON
THOMAS E. SCOTT----- --------- ^AUNITED STATES ATTORNEY

TERRENCE Jl^T’HOMPSON

ASSISTANT UNITED STATES ATTORNEY

2

-■ Case 0:98-cr-06232-WJZ Document 103 Entered on FLSD Docket 08/23/2002

Page 1 of 2

FILED by

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO. 01-6504-CIV-ZLOCH
98-6232-CR-ZLOCH

D.C.

AUG l 2 2002
CLARENCE madoox
CLERK U.S. DIST. CT.
S.D. OF FLA. FT. LAUD.

BRUCE SIMMONS,
Movant,

FINAL ORDER OF DISMISSAL

VS .
UNITED STATES OF AMERICA,

Respondent.
THIS MATTER is before the Court upon the Report Of Magistrate
Judge

(DE 25)

Charlene H:.

filed herein by United States Magistrate Judge

Sorrentino and upon the Objections To Magistrate's

Report And Recommendatic n
Simmons.

(DE 26)

filed by the Movant,

Bruce

The Court has conducted a de novo review of the entire

record herein and is fully advised in the premises,

In her Report

the Magistrate concluded that Simmons' claims 1-4, and 4a-d, are
barred as the Court of Appeals for the Eleventh Circuit rejected
these similar claims in Simmons' direct appeal of his sentence.
Simmons contends that his claims should not be barred as he raised
the claims: in question via a supplemental brief to the Court of
Appeals and new issues cannot be raised in a supplemental brief.
See United iStates v. Padilla-Reves, 247 F.3d 1158, 1164 (11th Cir.
!
However, this | Court agrees with the Magistrate's
2001).
•

conclusion, as in its Mandate the Eleventh Circuit stated that it
"rejected all other arguments Simmons' makes in [his] appeal."
I
Thus, based on this specific
(Case No. 98-6232-CR, DE 100).
language used by

the Eleventh Circuit,

the

Court

Simmons' claims 1-4, and 4a-d are barred.
Accordingly, after due consideration, it is
EXHIBIT

finds

that

.

Case 0:98-cr-06232-WJZ Document 103 Entered on FLSD Docket 08/23/2002 Page 2 of 2
ORDERED AND ADJUDGED as follows:
1.

The Movant, Bruce Simmons' Objections To Magistrate's

Report And Recommendation

(DE 26)

be and the same are hereby

OVERRULED;

2.

The Report Of jMagistrate Judge (DE 25)

filed herein by

United States Magistrate Judge Charlene H. Sorrentino, be and the

same is hereby approved, ratified and adopted by the Court;
3. “• The Movant's Motion To Vacate (DE 1) be and the same is
hereby DENIED;
4.

The

above-sty] Led

cause

be

and

the

same

is

hereby

DISMISSED; and
5.

|To the extent not otherwise disposed of herein, all

pending motions are hereby DENIED as moot.
DONE ! AND ORDERED in Chambers at Fort Lauderdale,

Broward

County, Florida, this __^^^_HT^day of August, 2002.

WILLIAM J. ZLOCft-----‘

Chief United States District Judge
Copies furnished:
The Honorable Charlene H< Sorrentino
United States MagistrateiJudge
;

j

Bruce Simmbns, Pro Se
Reg. No. 5|4 822-004
FCI - Miami
P. 0. Box 1779800
Miami, FL 33177-0200
Terrence J. Thompson, Esq., AUSA
For Respondent

2
EXHIBIT

APPENDIX A-6

uase; u:iy-cv-61443-UU

Document #: 13 Entered on FLSD Docket: 09/25/2019

Page 1 of 10

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO. 19-61443-CV-UNGARO
(CASE NO. 98-06232-CR-UNGARO)
MAGISTRATE JUDGE REID
BRUCE SIMMONS,
Petitioner,
v.

UNITED STATES OF AMERICA,
Respondent.

REPORT OF MAGISTRATE JUDGE RF
PETITION FOR WRIT OF ERROR CORAM NOBIS ■ 2S TT.S.r. 8 1^1
I.

Introduction

Petitioner, a former federal prisoner having been released from custody, has
filed a petition for writ of error coram nobis pursuant to 28 U.S.C. § 1651, seeking
an order from this court vacating his criminal judgment of conviction, and
dismissing the indictment, with prejudice in Case No. 98-06232-CR-UNGARO.
[ECF 1 ].1 Petitioner seeks relief on the basis that: (1) he is actually and factually
innocent of his convicted crimes [Id. p. 2]; and (2) that “[tjhere was absolutely no

Citations to [ECF] refer to docket entries in the instant case, Case No. 19-61443-CV-UNGARO.
Citations to [CR ECF] refer to docket entries in the underlying criminal case, Case No. 98-06232CR-UNGARO. All citations which include a reference to [CV ECF], refer to docket entries in all
other civil cases where Bruce Simmons was either a Petitioner and/or Movant.

1

Case: 0;19-cv-61443-UU

Document #: 13 Entered on FLSD Docket: 09/25/2019

Page 2 of 10

evidence presented to prove that [Petitioner] possessed, sold, or distributed cocaine
to FBI Agent Sullivan, or anyone else.” [Id. p. 16].
Petitioner has previously filed multiple motions and petitions for post­
conviction relief in an effort to circumvent the restrictions on successive filings
imposed by the Antiterrorism and Effective Death Penalty Act of 1996 (“AEDPA”).
Accordingly, for the reasons discussed below, Petitioner has not demonstrated
an acceptable basis for granting coram nobis relief. Because summary dismissal is
warranted and Petitioner is not entitled to coram nobis relief, no order to show cause
has been issued, and Respondent has not been required to file a response. See
Broadwater v. United States, 292 F.3d 1302, 1303-04 (11th Cir. 2002) (a district
court has the power to summarily dismiss a case so long as there is a sufficient basis
in the record for an appellate court to review the district court’s decision).
This cause has been referred to the undersigned for consideration and report
pursuant to 28 U.S.C. § 636(b)(1)(B), S.D. of Fla. Admin. Order 2019-02. [ECF 8].
II.

Background

On June 25, 1999, Petitioner was originally charged with and convicted of
distribution of cocaine under 21 U.S.C. § 841(a)(1) and 18 U.S.C. § 2, following a
jury verdict [CR ECF 40], in Case No. 98-06232-CR-ZLOCH.2 See United States v.

2 On August 26, 2019, the underlying criminal case, Case No. 98-06232 was assigned to Judge
Ursula Ungaro. [CR ECF 126].
2

OdOC. U.lS-OVUl^O-UU

uuourneni w. id tntered on FLSD Docket: 09/25/2019

Page 3 of 10

Simmons, Case No. 98-06232-CR-ZLOCH, Judgment [CR ECF 73] (S.D. Ha. June
29, 1999). Petitioner was sentenced to a total term of 240 months and three years of
supervised release. [CR ECF 73]. Petitioner concedes that he has since been released
from custody and that his supervised release has ended. See [ECF 1].
IH.

Relevant Procedural History

1) Direct Appeal of Criminal Conviction
After judgment was entered in Case No. 98-06232-CR-ZLOCH, Petitioner
filed a Notice of Appeal of his conviction and sentence. [CR ECF 74]. On October
27, 2000, Petitioner’s convictions were per curiam affirmed in a written, but
unpublished opinion. United States v. Simmons, 237 F.3d 634, 634 (11th Cir. 2000)
(table), [CR ECF 100]. Rehearing and rehearing en banc were denied on December
18, 2000. United States v. Simmons, 245 F.3d 797 (11th Cir. 2000) (tabie). Certiorari
review was denied on March 5, 2001. Simmons v. United States, 532 U.S. 913, 913
(2001).
2) Collateral Attacks to Criminal Cnnvintinn

Notably, after trial but before the imposition of sentence, Petitioner filed his
first petition for writ of error coram nobis, see United States v. Simmons, Case No.
98-06232-CR-ZLOCH, Petition [CR ECF 59] (S.D. Fla. May 21, 1999), and the
District Court Judge denied the petition. [CR ECF 67; 72]. The Eleventh Circuit
Court of Appeals affirmed the denial of the petition. See Simmons v. United States,

3

Case: 0;l9-cv-61443-UU

Document #: 13 Entered on FLSD Docket: 09/25/2019

Page 4 ot 10

Case No. 99-12589 (11th Cir. May 26, 2000) (citing Alikhani v. United States, 200
F.3d 732, 734 (11th Cir. 2000)); [CR ECF 97].
On March 30, 2001, Petitioner returned to this Court, filing his first pro se
motion to vacate pursuant to 28 U.S.C. § 2255, assigned Case No. 01-06504-CVZLOCH.3 See Simmons v. United States, Case No. 01-06054-ZLOCH, Motion to
Vacate [CV1 ECF 1] (S.D. Fla. Mar. 30, 2001). The motion was denied in a Final
Order of Dismissal, entered on August 22, 2002. [CV1 ECF 28].
Petitioner appealed, but the Eleventh Circuit declined to issue a certificate of
appealability. [CV1 ECF 29; 34], Review of that docket further reveals that between
2002 and 2010, Petitioner continued filing numerous motions seeking relief from the
judgment in the § 2255 proceeding, as well as, in his underlying criminal case. [CV1
ECF 36-137].
Undeterred, petitioner also filed six additional post-conviction habeas
proceedings in this court, assigned Case Nos. 04-60696-CV-COHN, 05-60353-CVZLOCH, 08-60303-CV-ALTONAGA,4 12-60031-CV-ZLOCH, 13-22401-CVZLOCH, 14-20995-CV-ALTONAGA, which were either filed as § 2255 motions to

3 On August 7, 2006, Case No. 01-06054 was reassigned to Judge Cecilia M. Altonaga.
4 It bears mentioning that the District Court Judge in Case No. 08-60303-CV-ALTONAGA,
entered an Order where the court noted that Petitioner has filed “at least eleven different motions
and three notices of appeal...requiring ten more orders by this court,” the latest of which was
Petitioner’s indirect attempt to again challenge his conviction by “casting” his pleading as a “writ
of audita querela.” [CV2 ECF 72].

4

oaac. u. -ls-uv-oxm^o-UU

uucumeni w. id bnterea on hlsd Docket: 09/25/2019

Page 5 of 10

vacate or, in legal effect, construed as such. These motions/petitions were denied as
unauthorized successive filings.
In 2016, Petitioner filed two more petitions for writ of error coram nobis,
alleging actual innocence and requesting vacatur of his conviction and sentence. See
Simmons v. United States, No. 16-60597-CV-ZLOCH, Motion for Writ of Error
CoramNobis [CV3 ECF 1] (Mar. 18,2016); see also Simmons v. UnitedStates, Case
No. 16-61256-CV-ZLOCH, Common Law Petition [CV4 ECF 1] (S.D. Fla. June 10,
2016). In both Case No. 16-60597-CV-ZLOCH and Case No. 16-61256-CVZLOCH, the District Court Judge dismissed the petitions. [CV3 ECF 13]; [CV4 ECF
11; 12].
Petitioner has once again returned to this Court, filing the instant Petition for
Writ of Error Coram Nobis. [ECF 1].
IV. Standard of Review- Coram Nobis
Certain common-law writs may be used to “[f]ill the interstices of the federal
post-conviction remedial framework . . . .” United States v. Holt, 417 F.3d 1172,
1175 (11th Cir. 2005) (quoting United States v. Ayala, 894 F.2d 425, 428 (D.C. Cir.
1990)). Federal courts have the authority to issue writs of error coram nobis under
the All Writs Act, 28 U.S.C. § 1651(a). See Roggio v. United States, 597 F. App’x
1051, 1052 (2015) (citing UnitedStates v. Mills, 221 F.3d 1201, 1203 (11th Cir.
2000)). The issuance of a writ of error coram nobis “[i]s a remedy available to vacate

5

Case: 0:19-cv-61443-UU

Document #: 13 Entered on FLSD Docket: 09/25/2019

Page 6 of 10

a conviction when the petitioner has served his sentence, [as is the case here,] and is
no longer in custody, as is required for post-conviction relief under 28 U.S.C. §
2255.” See Roggio, 597 F. App’x at 1052 (quoting United States v. Peter, 310 F.3d
709,712(11 th Cir. 2002) (per curiam)).
A petitioner may only obtain coram nobis relief where: (1) “there is and was
no other available avenue of relief;” and (2) “the error involves a matter of fact of
the most fundamental character which has not been put in issue or passed upon and
which renders the proceeding itself irregular and invalid.” Roggio, 597 F. App’x at
1052 (quoting Alikhani, 200 F.3d at 734).
Both the United States Supreme Court and the Eleventh Circuit have
acknowledged that “[i]t is difficult to conceive of a situation in a federal criminal
case today where coram nobis relief would be necessary or appropriate.” Carlisle v.
United States, 517 U.S. 416, 429 (1996) (quoting United States v. Smith, 331 U.S.
469, 475 n. 4 (1947)); see also Roggio, 597 F. App’x at 1052 (quoting Lowery v.
United States, 956 F.2d 227, 229 (11th Cir. 1992) (per curiam)).
More importantly, federal courts “[m]ay consider coram nobis petitions only
where • • • the petitioner presents sound reasons for failing to seek relief earlier.”
Roggio, 597 F. App’x at 1052 (quoting Mills, 221 F.3d at 1204) (emphasis added).
If Petitioner cannot present sound reasons for his failure to seek relief earlier or
cannot establish all of the requirements for coram nobis relief, dismissal of the

6

uase: u:iy-cv-bi443-uu

Document #:■ 13 Entered on FLSD Docket: 09/25/2019

Page 7 of 10

petition is appropriate. See Roggio, 597 F. App’x at 1052 (citing Mills, 221 F.3d at
1204).
V. Discussion
Petitioner is seeking coram nobis relief on the basis that he is factually
innocent of his convicted crimes. [ECF 1, p. 2]. In sum, Petitioner claims that he has
not had “any opportunity to have his first § 2255 motion address on the merits ....”
[Id. p. 9] (emphasis omitted), and that “[tjhere was absolutely no evidence presented
to prove that [Petitioner] possessed, sold, or distributed cocaine to FBI Agent
Sullivan, or anyone else.” [Id. p. 16]. However, the above allegations have been
previously addressed and ruled upon in former post-conviction proceedings.
Petitioner has filed multiple motions and petitions, multiple requests for
certificates of appealability, and multiple appeals to the Eleventh Circuit and
Supreme Court.
First, Petitioner's convictions were per curiam affirmed in a written, but
unpublished opinion on October 27, 2000, where the Eleventh Circuit rejected all
arguments Petitioner made in his appeal. United States v. Simmons, 237 F.3d 634,
634 (11th Cir. 2000) (table); [CR ECF 100, p. 5],
Second, Petitioner raises the same claims in the instant Petition, as he did in
his first § 2255 Motion, in Case No. 01-06504-CV-ZLOCH. In that motion,
Petitioner claimed that the “[e]vidence was clearly insufficient to convict” and that

7

Case: 0:19-cv-61443-UU

Document #: 13 Entered on FLSD Docket: 09/25/2019

Page 8 of 10

the Government failed to prove its case because the evidence did not show that
defendant “[s]old cocaine to Agent Sullivan.” [CV1 ECF 2, pp. 21-22] (emphasis
omitted). The former presiding magistrate judge found that Petitioner’s claim, that
[t]he evidence was insufficient to support a conviction because the government
failed to identify him as the person who committed the offense,” [CV1 ECF 25, p.
3], and all other claims should be denied because these claims were raised and
rejected on direct appeal. [Id. p. 5].
Third, Petitioner appealed the denial of the § 2255 Motion in Case No. 0106504-CV-ZLOCH, but the Eleventh Circuit declined to issue a certificate of
appealability because petitioner failed to make a substantial showing of the denial
of a constitutional right. [CV1 ECF 29; 34].
Lastly, in Case No. 13-22401-CV-ZLOCH, Petitioner filed a petition pursuant
to 28 U.S.C. § 2241, where he alleged, as he alleges here, that he is actually innocent
of his convicted crimes. Simmons-Restricted Filer v. Warden, Rob Wilson, Case No.
13-22401-ZLOCH, Petition for Writ of Habeas Corpus pursuant to 28 U.S.C. § 2241
[CV5 ECF 1] (S.D. Fla. July 3, 2013). On August 23, 2013, the presiding District
Judge entered a Final Order of Dismissal for failure to obtain from the Eleventh
Circuit Court of Appeals the authorization required by 28 U.S.C. 2244(b)(3) to file
a successive § 2255 motion. [CV5 ECF 8].

8

v^ctse: u;iy-uv-oiq-4j-uu

Document #: xa tnterea on hlsu Docket: 09/25/2019

Page 9 of 10

Accordingly, the Eleventh Circuit entered a Mandate, finding that: (1)
petitioner s arguments challenging the validity of his sentences and that he is
actually innocent of the crimes of conviction “[s]hould have been brought in a §
2255 motion [CV5 ECF 22, pp. 6-7]; (2) “[Petitioner] has not met his burden of
presenting evidence affirmatively showing the inadequacy or ineffectiveness of the
§ 2255 remedy, such that he is entitled to file a habeas petition under § 2241 [Id. p.
7], and (3) remand with instructions for the district judge to limit to restriction on
future filings to habeas petitions challenging [Petitioner’s] federal sentences for his
underlying drug conviction.” [Id. p. 9].
In sum, as has been demonstrated here, Petitioners claims have been
previously ruled upon. Given the foregoing, Petitioner has not demonstrated any
purported errors alleged in matters of fact of the most fundamental character which
have not been put in issue or passed upon which renders the proceeding itself
irregular and invalid. Roggio, 597 F. App’x at 1052. As such, Petitioner has not
demonstrated an acceptable basis for granting coram nobis relief. See id. at 1052
(quoting United Mills, 221 F.3d at 1204).
VI. Certificate of Appealability
A certificate of appealability is unnecessary for an appeal following the denial
of a petition for writ of error coram nobis. See United States v. Perkins, 424 F. App’x
328 (5th Cir. 2011).

9

Case: 0:19-cv-61443-UU

Document#: 13 Entered on FLSD Docket: 09/25/2019

Page 10 ot 10

VII. Conclusion
Based upon the foregoing it is recommended that the instant federal habeas
petition be DISMISSED, and the case CLOSED.
Objections to this report may be filed with the district judge within fourteen
days of receipt of a copy of the report. Failure to file timely objections shall bar
Petitioner from a de novo determination by the district judge of an issue covered in
this report and shall bar the parties from attacking on appeal factual findings
accepted or adopted by the district judge, except upon grounds of plain error or
manifest injustice. See 28 U.S.C. § 636(b)(1); Thomas v. Am, 474 U.S. 140, 149
(1985); Williams v. McNeil, 557 F.3d 1287, 1291 (11th Cir. 2009) (finding district
court has discretion to decline consideration of arguments not presented to the
magistrate judge in the first instance).
SIGNED this 25th day of September, 2019.

ITED STATES MAGISTRATE JUDGE
cc:

Bruce Simmons
283 SW 8th Street, Apt. B
Dania Beach, FL 33004
PRO SE
United States of America
represented by Noticing 2255 U.S. Attorney
Email: usafls-2255@usdoi.gov

10

IN THE UNTIED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

99-12589-J

NO.

United States of America,
AppeUee,
- versus Bruce Simmons,
Appellant.
ON APPEAL FROM THE UNTIED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF FLORIDA
BRIEF FOR THE UNITED STATES

Thomas E. Scott
United States Attorney
Attorney for Appellee
99 N.E. 4th Street
Miami, Florida 33132-2111
(305) 961-9285
Adalberto Jordan
Chief, Appellate Division
Kathleen M. Salyer
Assistant United States Attorney
Matthew C. Dates
Assistant United States Attorney
Of Counsel

EXHIBIT

United States v. Bruce Simmons, 99-12589-J
Certificate of Interested Persons
Undersigned counsel for the United States of America hereby certifies that the
following is a complete list of persons and entities who have an interest in the outcome
of this case:
Robert Berube
Alvin Ernest Entin
Adalberto Jordan
Kathleen M. Salyer
Thomas E. Scott
Hon. Barry S. Seltzer
Bruce Simmons
Hon. Lurana S. Snow
Terrance Thompson
Kathleen Williams
Hon. William Zloch

A

i
hr

a

K

Matthew C. Dates
Assistant United States Attorney

c-1 of 1

Statement Regarding Oral Argument
The United States of America respectfully suggests that the facts and legal
arguments are adequately presented in the briefs and record before this Court and that
the decisional process would not be significantly aided by oral argument.

Certificate of Type Size
The United States certifies that this brief uses 14 point Times Scalable type.

Table of Contents

Certificate of Interested Persons

c-1

Statement Regarding Oral Argument

1

Certificate of Type Size ...............

1

Table of Contents ...................

n

Table of Citations

m

Statement of Jurisdiction

m

Statement of the Issues.

1

Statement of the Case:
1.

Course of Proceedings and Disposition in the Court Below.

1

2.

Statement of the Facts.....................

2

The Offense Conduct

2

The Defense Case
3.

Standards of Review.

5

Summary of the Argument .........................................................

5

Argument and Citations of Authority:
I.

The District Court Properly Denied Simmons’s Petition
for Coram Nobis........................................

Conclusion

6
8

Certificate of Service

n

Table of Citations
Cases;
Frank v United States
175 F.3d 1007 (2d Cir. 1999)

6

♦Lowery v. United States
956 F.2d 227 (11th Cir. 1992)

5, 6,7

Moodv v. United States
874 F.2d 1575 (11th Cir. 1989)

7

United States v. Stiver
785 F.2d 1506 (11th Cir. 1986)

5

Statutes & Other Authorities;

Page:

18U.S.C. §2 ........

1, passim

21 U.S.C. § 841(aXl)

1

28 U.S.C. § 1291 ..

in

Statement of Jurisdiction
The jurisdiction of this Court is invoked under 28 U.S.C. § 1291.

m

Statement of the Issues
I.

Whether the district court properly denied Simmons’s coram nobis

petition.
Statement of the Case
**

Qmrse of Proceedings and Disposition in the Cnnrf HaIm*
On December 22,1998, a federal grand juiy in the Southern District

returned a sealed two count indictment charging Bruce Simmons with two

ofFlorida
counts of

distributing cocaine in violation of 21 U.S.C. § 841(a)(1) and 18 U.S.C. § 2 (DE.-3)1.
Simmons proceeded to trial on April 12,1999 (DE:39). On April 13,

1999, the

jury returned guilty verdicts as to Count I and Count II of the indictment (DE:40).
Following the district court’s denial ofhis motion forjudgment of acquittal or new trial
pE. 49,50,52), the district court sentenced Simmons to 240 months of imprisonment
as to Counts I and II to run concurrently, supervised release for a term of 3 y
ears, an
assessment of $200.00, and a $5,000 fine pE:73). Simmons filed a timely notice of
appeal ofthe judgment ofconviction PE:74). That appeal is pending before this Court
as Case No. 99-12064-J.
Before sentencing in this case, Simmons filed a petition for writ of error coram
nobis that is at issue here PE:59). The asserted basis for the motion was that Simmons

Docket entry numbers are denoted as “DE” with the docket number
following the colon and page number after the docket number.

could not be guilty of aiding and abetting himself therapy making his conviction under
18 U.S.C. § 2 improper. On June 17,1999, the court denied Simmons’s petition for
writ of error coram nobis (DE:67). Pusuant to an order of the district court, Simmons
was permitted to take a belated appeal of the district court’s denial of the coram nobis
petition(DE:79) and he remains incarcerated.
2.

Statement of the Facts.
The Offense Conduct
The evidence presented at trial showed Simmons’s involvement in furnishing a

total of $7,700 worth of cocaine on two occasions in January 1998 to a confidential
informant and an undercover FBI agent who were posing as buyers. Special Agent
Adrienne C. Sullivan of the Miami Division of the Federal Bureau of Investigation
(FBI) began working in an undercover capacity in relation to this case in January 1998
(DE:82, 93). SA Sullivan was portraying the girlfriend of the confidential informant
(Cl) m this case (DE:82, 94). In preparation for the first transaction on or about
January 2,1998, SA Sullivan gave the Cl $1,100 prior to meeting with Simmons (DE:
82, 99). The Cl gave the $1,100 to Simmons for the purchase of four ounces of
cocaine (id,). While waiting for Simmons at a 7-Eleven, SA Sullivan gave the Cl an
additional $1,100 to complete the transaction (DE:82, 100-101). When Simmons
amved at the 7-Eleven, he parked perpendicular to the undercover vehicle and the Cl

got out of the undercover vehicle joining Simmons (DE:82, 101). When the Cl got
back into the vehicle with SA Sullivan, the Cl handed SA Sullivan a bag of cocaine
(DE:82,101-102).
On or about January 22,1998, SA Sullivan and the Cl met in order to facilitate
another transaction with Simmons (DE:82,104). SA Sullivan gave the Cl $5,500 and
the two proceeded to Farah’s Market (DE:82,105). When they arrived, the Cl exited
the vehicle and talked to Simmons while SA Sullivan waited in the car (DE:82,105).
SA Sullivan observed a distinct brown vehicle pull out of the area where Simmons had
originally been standing (id.). SA Sullivan saw Simmons make a telephone call from
a pay phone (DE:82,105-106). SA Sullivan then saw that same brown vehicle pull up
and Simmons get into the car (DE:82, 106). The Cl waited in the vehicle with SA
Sullivan until Simmons returned (DE:82,107). The Cl and Simmons talked and the Cl
returned to the vehicle (id.).
Later that same day, the Cl and SA Sullivan met to go to the area where the
transaction with Simmons occurred (DE:82, 108). While driving to the area, SA
Sullivan observed Simmons riding a motor scooter (DE:82, 109). SA Sullivan saw
Simmons leave the motor scooter and get into the same brown vehicle with another
individual later identified as Melvin Brown (id.). SA Sullivan followed Simmons and
Brown to an address where Simmons spoke with an individual, to a second address,
3

and to a third address where Simmons spoke with another individual (DE:82,110). At
the third address, Brown and Simmons switched vehicles (idL). SA Sullivan and the Cl
waited at the same 7-Eleven where the initial transaction had occurred (DE:82,111).
Brown and Simmons pulled up approximately ten minutes later (id.). Simmons told SA
Sullivan that in order to make the purchase of nine ounces of cocaine the Cl had to go
with Brown and Simmons (DE:82,112). Approximately fifteen minutes later, the car
returned and the Cl got out, reentering the vehicle with SA Sullivan (id.). SA Sullivan
and the Cl followed Brown and Simmons back to a residence and observed Simmons
go inside (DE:82,113). The Cl went into the residence while SA Sullivan and Brown
remained outside (id.). The Cl exited the residence and got into the car with SA
Sullivan and produced a bag of cocaine (DE:82,113-114). Simmons was arrested on
February 17,1999 (DE:12).
The Defense Case
Simmons testified on his own behalf claiming that the Cl had asked Simmons to
cheat his “girlfriend” (SA Sullivan) in connection with the drug deal (DE:82, 179).
Simmons admitted to being involved in some prior drug activity (DE:83, 212).
Simmons claimed that Brown took the money and received the cocaine from the Cl
(DE:83,181). Simmons testified to being in the car with Brown during the transaction
(DE:82,187, DE:83,214). Finally, in order to “cheat” the Cl’s “girlfriend” Simmons
4

testified that while in the car with Brown he (Simmons) poured another substance into
a bag of cocaine held by Brown in order to “
3.

cut” the cocaine (DE:83,214).

Standard of Review.

The availability of coram nobis reliefpresents a

question oflaw. As a result, de
novoreviewisappropriate. See,at.Loweryv TTn.W c...956 F.2d 227,229-30
(11th Cir. 1992).
Aiding and abetting under 18 U.S.C.

§ 2 is not a separate crime, “but is
inherently embodied iin all indictments for substantive offenses.”
United Static t.

Stitzer, 785 F.2d 1506,1518 n.7 (11th Ci

it.

1986) (citing UmtedStates XPearson, fif7
F.2d 12,13 (5th Cir., UnitB, 1982)(per curiam)).
Summary of the Argument
The district court properly denied Simmons’
because there was no defect,

s petition for writ of coram nobis

much less the type of fundamental defect that a writ of

coram nobis is designed to cure, in either the indictment or the trial,

This Court has

held that aiding and abetting is embodied in all substantive offenses.
Simmons was
individual. Therefore, the government’s reliance at trial
on an aiding and abetting
theory in order to convict Sim
mons as a principal was proper given the government’s
theoiy that Simm

ons may or may not have completed all of the predicate acts himself.

Argument
l'

JThf District Court Properly Denied Simmons’s Petition for Coram
Nobis.
Simmons contends that he is entitled to coram nobis relief because he could not

be convicted of violating 18 U.S.C. § 2 where there was no evidence that anyone other
than he was involved in the offense. Simmons claims that because he
abet himself, the charge is not valid. Coram nobis jurisdiction
the error alleged is 'of the most fundamental character'

can not aid and

is available only when

. . and when 'no statutoiy

remedy is available or adequate'....” (citations omitted). Lowervv United Static 956
F.2d 227,228-229 (11th Cir. 1992).
Simmons was not entitled to a writ of error coram nobis, which is limited for the
correction of fundamental defects that render a proceeding irregular because the claims
asserted by Simmons are not the sort of fundamental irregularities for which coram
nobis provides a remedy. In addition Simmons is not properly invoking the coram nobis
procedure because, “[t]he writ of coram nobis is not a substitute for direct appeal;
instead, it is available only in those ‘extraordinary circumstance’ in which ‘

errors ofthe

most fundamental magnitude have rendered [a] proceeding .. irregular and invalid.’”

Eranlt V. United States, 175 F.3d 1007, 1999WL 88944, **2 (2d Cir. 1999)(quoting
Foontv. United Stati-s 93 F.3d 76,78 (2d Cir. 1996).

The district court correctly found that coram nobis relief was not warranted
(R:59). A writ of error coram nobis is "a limited remedy of last resort" reserved for
defects which render the proceeding in question irregular and invalid. Id, Stated
differently, coram nobis is an "extraordinary" remedy to be granted "'only under such
circumstances compelling such action to achieve justice."’ Moodvv United States 874
F.2d 1575, 1576 (11th Cir. 1989) (quoting United States v Mnrpan 346 U.S. 502,
507-11 (1954)).

This Court, for example, has held that claims of newly discovered evidence and
challenges to sentences based on incorrect PSIs are not cognizable under coram nobis.
Lowery. 956 F.2d at 230: Moody. 874 F.2d at 1577
In Lowery, the Court ruled that the petitioner, who alleged that a prior guilty plea
had been involuntary due to his multiple personality disorder, was not entitled to coram
nobis relief because he should have asserted that same claim in habeas corpus
proceedings. 956 F.2d at 229. And in Moody, the Court held that an ineffective
assistance of counsel claim could not be raised in a coram nobis proceeding because the
petitioner had known of the grounds supporting the claim earlier, but had not raised the
claim in a habeas corpus proceeding. 874 F.2d at 1578.
In any event, Simmons's claims do not allege the sort of fundamental defects
necessary for coram nobis relief. Simmons’s challenge to his conviction under the

aiding and abetting statute is one which he can properly raise on the direct appeal ofhis
conviction and sentence that is pending before this Court as Case No. 99-12064-J.
Conclusion
For the foregoing reasons, the district court’

s decision should be affirmed.

Respectfully submitted,
Thomas E. Scott
United States Attorney
By:

'1
Matthew C. 'ates
Assistant United States Attorney

Adalberto Jordan
Chief, Appellate Division
Kathleen M. Salyer
Assistant United States Attorney
Of Counsel

8

Certificate of Service
I hereby certify that a true and correct copy of die foregoing Brief for the United
States was mailed this _2l day of September, 1999, to Bruce Simmons, Reg. No.
54822-004, FCI-Miami, P.O. Box 979137, Miami, Florida 33197.

Matthew C. Dates
Assistant United States Attorney

9

APPENDIX A-8

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ELBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N.W.
Atlanta, Georgia 30303
For rules and forms visit
www.cal 1 .useourts.gov

David J. Smith
Clerk of Court

February 24, 2021
Clerk - Southern District of Florida
U.S. District Court
400 N MIAMI AVE
MIAMI, FL 33128-1810
Appeal Number: 19-14385-DD
Case Style: Bruce Simmons v. USA
District Court Docket No: 0:19-cv-61443-UU
A copy of this letter, and the judgment form if noted above, but not a copy of the court's
decision, is also being forwarded to counsel and pro se parties. A copy of the court's decision
was previously forwarded to counsel and pro se parties on the date it was issued.
The enclosed copy of the judgment is hereby issued as mandate of the court. The court's opinion
was previously provided on the date of issuance.
Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: Lois Tunstall
Phone#: (404) 335-6191
Enclosure(s)
MDT-1 Letter Issuing Mandate

UNITED STATES COURT OF APPEALS
For the Eleventh Circuit

No. 19-14385

District Court Docket No.
0:19-c v-61443-UU
BRUCE SIMMONS,
Plaintiff - Appellant,
versus
UNITED STATES OF AMERICA,
Defendant - Appellee.

Appeal from the United States District Court for the
Southern District of Florida

JUDGMENT
It is hereby ordered, adjudged, and decreed that the opinion issued on this date in this appeal is
entered as the judgment of this Court.
Entered: May 29, 2020
For the Court: DAVID J. SMITH, Clerk of Court
By: Jeff R. Patch

ISSUED AS MANDATE 02/24/2021

}a

/

k-tsf-,
i

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO. 01-6504-CIV-ZLOCH/SORRENTINO
(CASE NO. 98-6232-CR-ZLOCH)
BRUCE SIMMONS,
Movant,
v.
UNITED STATES OF AMERICA,
Respondent.

GOVERNMENT'S RESPONSE TO MOTION TO
VACATE, SET ASIDE OR CORRECT SENTENCE
PURSUANT TO TITLE 28. U.S.C.. SECTION 2255
The United States of America, by and through its undersigned
Assistant

United States Attorney,

hereby responds

to

movant's

Motion to Vacate, Set Aside or' Correct Sentence pursuant to Title
28, U.S.C., Section 2255 as follows:
STATEMENT OF THE CASE
On December 22, 1998, a federal grand jury at Fort Lauderdale,
Florida, returned an indictment charging movant in two counts with
possession with intent to distribute cocaine, in violation of 21
U.S.C. §841(a)(1) and 18 U.S.C. §2 (CR-DE 3).

The indictment was

sealed until movant was arrested and arraigned on February 17, 1999
(CR-DE 6) .
On April 12, 1999, movant proceeded to urial by jury (CR-DE
39) .

On April 13, 1999, the jury found movant guilty as charged

(CR-DE 40, 45) .

On June 25, 1999, this Court sentenced movant to

two hundred

forty months'

imprisonment

on each count,

to run

concurrently with each other, followed by three years' supervised
release,

also to run concurrently with each other.

The Court

further ordered that movant immediately pay a $200 assessment and
a $5,000 fine (CR-DE 71, 73).
Movant appealed.

On October 27, 2000, the Eleventh Circuit

Court of Appeals affirmed movant's conviction in an unpublished per
curiam decision (CR-DE 100).

On March 5, 2001, the United States

Supreme Court denied certiorari.

Simmons v. United States.

121

filed

and

S.Ct. 1247 (2001).1
On

March

3 0,

2001,

movant

this

memorandum of law in support (CR-DE 101, 102).

§2255

motion

On July 9, 2001,

Magistrate Judge Sorrentino granted the government's motion for an
enlargement of time within which to respond to the motion to on or
before August 6, 2001 (CV-DE 11).
STATEMENT OF FACTS
The

facts

of

this

case

have

been

excerpted

from

the

government's brief on direct appeal and are attached hereto as
Exhibit A.
MEMORANDUM OF LAW
Movant contends his conviction and sentence are illegal based
on the following claims:

1 Movant's §2255 motion is timely filed within one year from
the date his conviction became final.
2

1.

The district court's jury instruction on
aiding
and
abetting
was
improper,
unjustified, plain error, and requires
reversal of convictions (CV-DE 12);

2.

The district court's jury instruction and
prosecutor's
arguments
constructively
amended
indictment
in violation
of
federal Constitution's Fifth Amendment
(CV-DE 2, p. 18);

3.

The evidence was clearly insufficient to
convict and counsel failed to challenge
or adequately challenge its sufficiency
under Rule 2 9 motion (CV-DE 2, p. 21) ;

4.

The cumulative nature of trial errors
deprived defendant of due process and a
fair trial (CV-DE 2, p. 26):

v

5.

(a)

Speedy trial/Failure to indict
within 3 0 days (CV-DE 2, p.
26) ;

(b)

Prosecutorial misconduct (CV-DE
2, p. 27);

(c)

Miranda warning violation (CVDE 2, p. 29);

(d)

offender
career
Improper
enhancement (CV-DE 2, p. 30);

(e)

Bureau of Prisons cannot act as
collection agency (CV-DE 2, p.
32); and

The indictment fails to state an offense
(CV-DE 2, p. 33).

Movant's allegations have either been previously rejected on direct
appeal or are otherwise meritless.
I.

ISSUES PREVIOUSLY REJECTED ON DIRECT APPEAL
Many of the issues raised by movant in this proceeding were

3

previously raised and rejected on direct appeal.

On direct appeal,

movant succeeded in dismissing counsel and proceeding pro se.

See

August 1, 2000 order from the Eleventh Circuit granting movant's
motion

to

withdraw,

proceed

pro

se

and

allowing

appointed
Movant

attached hereto as Exhibit B.

counsel

to

then filed a

supplemental appellate brief which raised the same issues which are
addressed in Grounds 1-3, and 4(a)-(d) supra.

See August 24, 2000

order from the Eleventh Circuit noting the

filing of movant's

supplemental appellate brief, attached hereto as Exhibit C, and the
supplemental appellate brief, attached hereto as Exhibit D.
Although,

in rendering its decision,

the Eleventh Circuit

discussed in detail only the issue which had been raised in the
brief filed by counsel on movant's behalf,
reflects

that

the

Court

had

also

reviewed

arguments presented in movant's pro
brief.

The

Court

began

reviewing the record,

its

the decision clearly

se

discussion

and

rejected

supplemental
by

the

appellate

stating:

"After

we see no merit to any of the arguments

Simmons makes in this appeal."

It then specifically discussed the

issue which had been raised by court-appointed counsel before he
was allowed to withdraw,

i.e.,

whether the district court had

properly limited the defense's cross-examination of a government
witness

concerning

criminal history.

a

non-testifying

confidential

informant's

The Court, however, then concluded:

"Therefore,

we reject this argument and all other arguments Simmons makes in

4

this appeal"

(CR-DE 100)

(emphasis added).

Thus, because the issues raised in Grounds 1-3, and 4(a)-(d)
of movant's §2255 motion were already raised and rejected on direct
appeal, they should not be reconsidered here.
Nvhuis, 211 F.3d 1340, 1343 (11th Cir. 2000)

United States v.

("[0]nce a matter has

been decided adversely to a defendant on direct appeal it cannot be
re-litigated in a collateral attack under section 2255," citing
United States v. Natelli

(citation omitted)),

cert. denied,

121

S.Ct. 892 (2001).
II.

MOVANT'S REMAINING CLAIMS ARE PROCEDURALLY BARRED
Movant's remaining claims as set forth in Ground 4(e)

and

Ground 5 are procedurally barred for movant's failure to raise them
at an earlier stage unless he can show cause excusing his failure
to raise the issue previously and actual prejudice resulting from
the

alleged

errors,

Holladav v. Halev.
States

v.

Nvhuis,

or

a

fundamental

209 F.3d 1243, 1254
supra

211

F. 3d

at

miscarriage

of

justice.

(11th Cir. 2000); United
1344

(11th

Cir.

2000) .

Furthermore, even though the law may have been settled against the
defendant in his circuit on the legal questions involved,

"the

futility of presenting an objection . . .

cannot alone constitute

cause for a failure to object at trial."

Engle v. Isaac, 456 U.S.

107, 130 (1982) ; see also Bouslev v. United States, 523 U.S. 614,
623 (1998).
Movant here claims that counsel was ineffective for failing to

\

5

previously present all the issues raised in the motion,

Although

ineffective assistance of counsel may satisfy the cause exception
to a procedural bar, it will do so only if a review of the claims
movant complains counsel failed to raise were significant enough to
have affected the outcome of the case.

Movant cannot make that

showing here.
The standard for ineffective assistance of counsel is found in
the two-pronged test of Strickland v. Washington.

466 U.S.

668

(1984) :
A convicted defendant's claim that counsel's
assistance was so defective as to require
reversal of a conviction or death sentence has
First, the defendant must
two components,
show that counsel's. performance was deficient.
This requires showing that counsel made errors
so serious that counsel was not functioning as
the "counsel" guaranteed to the defendant by
Second, the defendant
the Sixth Amendment.
must show that the deficient performance
prejudiced the defense. This requires showing
that counsel's errors were so serious as to
deprive the defendant of a fair trial, a trial
whose result is reliable. Unless a defendant
makes both showings, it cannot be said that
the conviction or death sentence resulted from
a breakdown in the adversary process that
renders that result unreliable.
Id. At 687.

The Supreme Court instructed that courts need not

address both prongs "if the defendant makes an insufficient showing
on one."

Id. at 697; Marek v. Singletary, 62 F.3d 1295, 1298 (11th

Cir. 1995).
With respect to the first prong of the test, the Supreme Court
advised

\

that

counsel's

performance
6

should

be

evaluated

for

rejected by the Eleventh Circuit or are otherwise meritless as
any

prejudice

resulting from counsel's alleged deficient performance.

Thus, his

discussed

supra.

movant

has

not

demonstrated

claims of ineffective assistance of counsel must also fail.
CONCLUSION
For the foregoing reasons,

movant's Motion to Vacate,

Aside or Correct Sentence pursuant to 28 U.S.C.

Set

§2255 should be

denied.
Respectfully submitted,
GUY A. LEWIS
UNITED STATES ATTORNEY
/

z

BY
--- -TERRENCE J. THOMPSON
ASSISTANT UNITED STATES ATTORNEY
COURT NO. A5500063
500 E. BROWARD BOULEVARD, SUITE 700
FORT LAUDERDALE FL 33394
TEL. (954) 356-7254
FAX (954) 356-7228

14

CERTIFICATE OF SERVICE
This is to certify that a copy of the within and foregoing
response has been mailed, postage prepaid, this 6th day of July,
2001, to:

Bruce Simmons, Reg. No. 54822-004, F.C.I. - Miami, P.O.

Box 779800, Miami, Florida, 33177-0200.

TERRENCE J. TH.0MPSON
ASSISTANT UNITED STATES ATTORNEY

15

Case 0:OS-cv-fcjUiUJ-uivfA uuuui.w. II ow

nm

l&OWffQMiWW
OJEVEhfTH C^OUfT

CONFIDENTIAL

, WJL.W>■■■■■'

BEFORE THE CHIEF judge
_
OF THE ELEVENTH JUDICIAL CIRC JIT

MAY 1S 2010

Judicial Complaint No. 11-10-90021 __

JOHN LEY
CM

IN THE MATTER OF A COMPLAINT FILED BY BRUCE SIMMONS
IN RE: The Complaint of Bruce
U.S.C. §§ 351-364.----------------- ---------- ---------- -------------ORDER
Mr. Bruce Simmons filed this Comp^mtagamst U.S^ Circmt Judge

and

The record shows that in Appeal No. ^-12064,f^^JC<^j^^ta1m^to»
Eleventh Circuit (“the Court”) affirmed Mr„^™1°n^255 habeas corpus petition in Case
issued on October 27, 2000. Mr. Simmons filed a § ^W***W*J> ^ ^
' No 01 -civ-6504-Zloch that was dismissed by the district co
^ • forma
Appeal No. 0J3-1Q043 Mr. Simmons moved to file a mandam PU
- Qn June 27,
that motion was denied by the Court on.February■ 20. JW*.

«S£»^'5^.»*!2U-±aSS

On July 25,20067the district court sua sponfe
—isTnCaseTvo'. l:06-cv-0'1541-WSD
judges
dismissed the complaint for failing to state a clam £ ApperiNo 06-1575 ^
or____ „ appealed thft
Simmons
the district court’s
court' decision, and
t in an opinion issacu u
. Judge Dubina was on the merits
2007, the Court affirmed the district court s decision
panel in Appeal No. 06-15755.

leave to file a supplemental brief.
Mr. Simmons alleges that the erroneous statement in the Court. s
merits
consulates ftaud and is a criminal act Mr. Simmons
stLments for the
panel to Appeal No. 06-15755 “knowingly made false and ■=■£•*“**
his
Lp. purpose of causing physical harm and injury to the complain----- ----- _L_i_S
EXHIBIT

\ Si

'

(

Case Q:08-cv-6u;5U3-uvia uocui net u uu

LIUOIVU un *

constitutional right to file a Civil Action against the entire Eleventh Circuit panej_of
judges.” (Emphasis provided by complainant)
Mr. Simmons provides no evidence, and I can determine no basis for concluding
that Judge Dubina or any other panel member knew that the statement in the Court s
opinion with respect to the filing of a supplemental brief was incorrect.
The allegations of this Complaint are “directly related to the merits of a decision or
procedural ruling” or the Complaint “is based on allegations lacking sufficient evidence
to raise an inference that misconduct has occurred or that a disability exists, or both.
Therefore, pursuant to Chapter 16 of Title 28 U.S.C. § 352(b)(l)(A)(ii) and (iii), and Rule
11(c)(1)(B) and (D) of the Rules for Judicial-Conduct and Judicial-Disability Proceedings
is Complaint is DISMISSED.
of the Judicial Conference of the United Stat

2

tih- Cle/ 2.

..... U.S, COURT OF APPEALS
IN THE UNITED STATES COURT OF appeals - ELEVENTH CIRCUIT
FOR THE ELEVENTH CIRCUIT

No. 99-11064-JJ

■i

Ml £000

' THOMAS X: KAHN
C.'ERK

UNITED STATES OF AMERICA,

Plaintiff-Appellee,
BRUCE SIMMONS,

versus
Defendant-Appellant.

On Appeal from the United States District Court for the
Southern District of Florida
ORDER:
The "motion for leave to file supplemental brief . .
.

filed

by Appellant himself, is DENIED.
The motion to withdraw as counsel for Appellant filed by
attorney Alvin Entin is DENIED.
Appellee1s motion to strike Appellant's "motion for leave to
file supplemental brief . . ." is DENIED.
Appellant's mofion to stay . the time for filing Appellant • s
reply brief is DENIED AS MOOT,

Appellant is directed to file his

reply within fourteen (14) days of. the date of this Order.

UNITED STATES CIRCUIT JUDGE

USCA11 Case: 19-14385

Date Filed: 02/16/2021

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 19-14385-DD
BRUCE SIMMONS,
Plaintiff - Appellant,
versus
UNITED STATES OF AMERICA,
Appeal from tJee6m?e§tS’t^f)fj!s&ict Court
for the Southern District of Florida

ON PETITION(S) FOR REHEARING AND PETITION(S) FOR REHEARING EN BANC
BEFORE: WILLIAM PRYOR, Chief Judge, GRANT and LUCK, Circuit Judges.
PER CURIAM:
The Petition for Rehearing En Banc is DENIED, no judge in regular active service on the Cour
having requested that the Court be polled on rehearing en banc. (FRAP 35) The Petition for
Panel Rehearing is also denied. (FRAP 40)

ORD-46

i

